Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Portable Imaging Services:

           A Costly Option




                    JUNE GIBBS BROWN
                    Inspector General

                      NOVEMBER 1997
                       OEI-09-95-00090
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This statutory
mission is carried out through a nationwide program of audits, investigations, inspections,
sanctions, and fraud alerts. The Inspector General informs the Secretary of program and
management problems and recommends legislative, regulatory, and operational approaches
to correct them.



                       Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office 

of Inspector General. It conducts short-term management and program evaluations (called 

inspections) that focus on issues of concern to the Department, the Congress, and the 

public. The inspection reports provide findings and recommendations on the efficiency, 

vulnerability, and effectiveness of departmental programs. 


OEI’s San Francisco Regional Office prepared this report under the direction of 

Kaye D. Kidwell, Regional Inspector General, and Paul A. Gottlober, Deputy Regional 

Inspector General. Principal OEI staff included: 


REGION IX                                          HEADOUARTERS

Brad Rollin, Project Leader 
                      Stuart Wright, Program Specialist
Robert Gibbons, Project Leader 

Kathy Dezotte 

Don Loeb 

Thomas Purvis 

Joseph Corso, Consultant 


To obtain a copy of this report, 
 call the San Francisco Regional Office at 415-437-7900.
I                                             I




    Department of Health and Human Services

            OFFICE OF
       INSPECTOR GENERAL




       Portable Imaging Services:

               A Costly Option




                        JUNE GIBBS BROWN
                        Inspector General

                          NOVEMBER 1997
                           OEI-09-95-00090
                 EXECUTIVE                                  SUMMARY

PURPOSE

This inspection determined how different billing practices, financial arrangements, and
clinical settings affect the cost of imaging services for the Medicare program and its
beneficiaries.

BACKGROUND

Nursing homes* arrange for ancillary services--such as x-rays--for patients who require
them. In some instances, firms known as portable x-ray suppliers provide the x-ray and
electrocardiogram (EKG) services in nursing homes.** Imaging services consist of
several components--technical, professional, transportation, and setup--depending on
(a) the type of service and (b) where and by whom it is rendered.

Portable x-ray and EKG services provided to nursing home patients may be billed either
by a skilled nursing facility to the Part A fiscal intermediary or by the portable supplier to
the Part B carrier. ‘Direct billing” occurs when the portable supplier bills the carrier.
 “Billing under arrangement” occurs when, based on a contractual agreement, a skilled
nursing facility bills the fiscal intermediary and pays the portable supplier for services
rendered. Skilled nursing facilities may bill under arrangement even for patients who are
not in Part A-covered stays.

We examined a stratified random sample of 729 imaging services that were provided
while the beneficiaries were nursing home residents in 1994.

FINDINGS

Overall, we found that Medicare pays too much for portable imaging services. Medicare
could save as much as $66 million in 1 year and $361 million over 5 years, based on the
following findings and recommendations:

Portable chest x-rays cost far more than non-portable                chest x-rays

Portable chest x-rays may cost up to nine times more than non-portable chest x-rays.
Portable x-ray suppliers performed more than 60 percent of chest x-rays rendered to


     * For purposes of this inspection, nursing homes refers to skilled nursing, Medicaid nursing, board and
care, assisted living, and retirement facilities collectively. Where appropriate, we distinguish between
skilled nursing facilities and these other facilities.

     ** Other options for nursing homes include providing the service with their own equipment or
transporting patients to hospital outpatient departments, imaging centers, physician offices, or other facilities
for x-rays or EKGs.


                                                        i
nursing home residents in 1994. In general, portable chest x-rays cost more because
Medicare allows a transportation charge, which comprises most of the cost of the service.

Medicare pays more than twice as much for imaging services when they are billed under
arrangement rather than when payment is limited to the fee schedule

In 1994, Medicare paid $14.7 million more for portable chest x-rays and EKGs provided
under arrangement than it would have if payment were limited to the carrier fee
schedules. This occurs because (1) portable x-ray suppliers negotiate contracts with
skilled nursing facilities to ensure that they receive as much as six times more than fee
schedules would allow and (2) skilled nursing facilities mark up these already inflated
charges as much as 250 percent for overhead and expenses. In addition, we estimate that
Medicare spent $9 million more in 1994 on other radiological services billed under
arrangement than it would have if payments for those services had been limited by the fee
schedules.

On average, portable suppliers who bill under arrangement        receive double what the fee
schedule would allow

Portable x-ray suppliers negotiate contracts with skilled nursing facilities to receive more
(as much as six times more) than the Medicare fee schedule would allow. Portable x-ray
suppliers charge radically different amounts to neighboring skilled nursing facilities.

Skilled nursing facilities receive millions of dollars that they would not receive if they did
not bill under arrangement

Skilled nursing facilities mark up portable chest x-ray costs as much as 250 percent above
what portable x-ray suppliers bill them. This totaled $8.1 million in 1994.

Medicare pays for services under arrangement       that it would not cover if billed directly

Services billed under arrangement are not subjected to the same routine screens and edits
as directly billed services are. As a result, skilled nursing facilities are reimbursed for
charges that would be denied if the portable supplier billed directly. These
reimbursements include (1) setup charges for portable EKG equipment, (2) after-hours or
emergency charges, (3) transportation charges not prorated when multiple patients are
seen, (4) medically unnecessary or duplicate services, and (5) portable equipment
transportation and setup charges when only a portable technician is provided.

Beneficiaries’ copayments for services billed under arrangement       are almost three times
more than they would be if the services had been billed directly

The combination of three factors--inflated supplier charges to skilled nursing facilities,
excessive markups by these facilities, and the Medicare policy that beneficiary copayments
are 20 percent of billed amounts for ancillary services--results in vastly higher costs to
beneficiaries and secondary payers.


                                              ii
The amounts that Medicare carriers allow for transportation            of portable x-ray equipment
vary widely, and some are excessive

In 1994, carrier allowances for portable x-ray transportation when one patient was seen
ranged from $10.00 to $186.39. Although Medicare requires carriers to prorate
transportation charges when multiple patients are seen at one nursing home, not all
carriers do this correctly. There is no statutory authority for the Health Care Financing
Administration (HCFA) to allow setup charges. The HCFA recently used the lack of
statutory authority as a rationale for eliminating reimbursement for EKG transportation.

RECOMMENDATION

In the draft of this report, we recommended that HCFA:

  b	     instruct fiscal intermediaries to never pay more than the fee schedule amount for
         portable imaging services billed under arrangement;

  b	     require$scal intermediary edits and Common Procedure Coding System codes on
         all claims to discontinue payments for non-covered services;

  b	     require fiscal intermediaries to disallow any skilled nursing facility overhead
         associated with portable imaging services; and

   b	    convert transportation reimbursement rates to a national fee schedule, rebundle
         equipment setup with transportation, and remind carriers that they must prorate
         transportation charges when multiple patients are seen at the same facility.

We projected 5-year Medicare savings of $360.9 million for these recommendations, as
indicated in the following table:


                 Projected Medicare savings from implemented recommendations

        Option                                                I l-year savings I 5-year savings
        Limit payment for services billed under                $ 28.3 million   $160.4 million
        arrangement to fee schedule
        Limit transportation to $70 per beneficiary-service    $ 21.8 million   $126.6 million 

        day (the national median), $35 if 2 beneficiaries 

        are seen during the same trip, etc. 

        Stop paying for setup                                  $ 15.7 million   $ 73.9 million 

        TOTALS                                                 $65.8 million    $360.9 million




                                                   .. .
                                                  111
The HCFA concurred with the majority of the recommendations in our draft report but
did not concur with our recommendations that it (1) disallow any skilled nursing facility
overhead associated with portable imaging services and (2) rebundle the equipment setup
charge with transportation.

After we released our draft report, President Clinton signed into law the Balanced Budget
Act of 1997. Among the provisions in this law, it (1) establishes a prospective payment
system for beneficiaries in Part A-covered stays in skilled nursing facilities, to be phased
in over several years; (2) requires that all Part B items and services furnished to residents
of nursing homes (not covered under Part A) be billed by the nursing homes as part of a
consolidated billing system; (3) limits reimbursement for services paid under consolidated
billing to the Part B fee schedule; and (4) requires HCFA Common Procedure Coding
System codes for services provided to skilled nursing facility patients that are billed to
fiscal intermediaries.

We believe that implementation of the Balance Budget Act will address our findings and
the intent of our recommendations. We are concerned, however, that the cost of ancillary
services has been inflated by the practices described in this report. Therefore, we
recommend that HCFA:

   b	   take into account the inflated payments that have been made for portable imaging
        services when it implements the prospective payment and Part B provisions of the
        Balanced Budget Act, seeking legisla&e authority if necessary.

        The HCFA should take into account the inflated charges for (1) services billed
        under arrangement (including payments for services that were non-covered) and
        (2) transportation charges that were excessive or prorated incorrectly.

Operation Restore Trust

In May 1995, President Clinton and Health and Human Services Secretary Donna Shalala
announced the kickoff of Operation Restore Trust (ORT), a crackdown on Medicare and
Medicaid fraud, waste, and abuse in home health agencies, nursing homes, and durable
medical equipment suppliers. The ORT focused on the five States--California, New York,
Florida, Texas, and Illinois--that account for 40 percent of the nation’s Medicare
beneficiaries and program expenditures. This was an ORT inspection. A companion
report, “Portable Imaging Services: Nursing Home Perspectives” (OEI-09-9500091)
describes when, how, and why nursing homes use portable imaging services. Another
companion report, “Imaging Services for Nursing Home Patients: Medical Necessity”
(OEI-09-95-00092), assesses the medical necessity and quality of care.




                                              iv
                       TABLE                       OF            CONTENTS

                                                                                                                            PAGE
EXECUTIVE SUMMARY

INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8



    Portable services cost far more than non-portables                              .......................                     8


    Arrangements cost Medicare millions                       ................................                                  9


    Portable suppliers profit from arrangements ..........................                                                     10 


    Nursing homes take in millions in overhead from arrangements                                            .............      11 


    Medicare pays for services that should be denied                              .......................                      11 


    Beneficiary copayments soar when services are billed under arrangement .......                                             13 


    Transportation fee schedules are excessive ............................ 
                                                  13


RECOMMENDATION 
                 ...........................................                                                   15

APPENDICES

 A: Agency Comments ..........................................                                                               A-l

 B: Confidence Intervals .........................................                                                            B-l

 C: Estimated Savings            ..........................................                                                   C-l
                               INTRODUCTION

PURPOSE

This inspection determined how different billing practices, financial arrangements, and
clinical settings affect the cost of imaging services for the Medicare program and its
beneficiaries.

BACKGROUND

Medicare (Parts A and B)

Congress enacted Medicare in 1965 to provide health services to the elderly and disabled.
The program consists of two distinct parts. The first part is hospital insurance or Part A.
Part A covers services furnished by providers, i.e., hospitals, home health agencies, and
skilled nursing facilities. The second part, supplementary medical insurance or Part B,
covers a wide range of medical services and supplies. These include physician services,
outpatient hospital services, diagnostic laboratory tests, x-rays, ambulance services, and
durable medical equipment.

The Health Care Financing Administration (HCFA) administers Medicare and contracts
with private insurance companies to process and pay claims. Contractors that process Part
A claims are referred to as fiscal intermediaries. Contractors that process Part B claims
are called carriers.’ Some companies have both fiscal intermediary and carrier contracts.

The HCFA provides substantial guidance to fiscal intermediaries and carriers on
applicable laws, regulations, national polices, fee schedules, and other requirements.                      In
some areas, Federal law and HCFA allow the fiscal intermediaries and carriers
considerable latitude in determining both coverage and reimbursement.

Skilled nursing facilities and other extended care facilities

Medicare beneficiaries recuperating from an acute episode may be eligible for post-acute
skilled nursing services. The Medicare program provides coverage under Part A for
skilled nursing services but not for custodial care. The skilled nursing benefit includes:

   b    nursing care, 

   b    bed and board, 

   b    physical, occupational, or speech therapy, 

   b    medical social services, and 

   b    drugs, biologicals, supplies, appliances, and equipment for use in the facility. 




     ’ An exception to this general rule is that fiscal intermediaries process Part B claims submitted by
hospitals (for inpatient and outpatient services), home health agencies, and skilled nursing facilities.


                                                     1
Medicare law stipulates that beneficiaries are eligible for skilled nursing benefits if they
are transferred to the skilled nursing facility after a minimum 3-day covered stay in an
acute hospital. The patient must require skilled nursing care, and a physician must order
the services. Part A covers skilled nursing services for up to 100 days per “spell of
illness. ”

In addition to skilled nursing facilities, other facilities offer varying levels of care for
Medicare beneficiaries. These include Medicaid nursing, board and care, assisted living,
and retirement facilities. We have included all of these facilities in the scope of this
study and refer to them collectively as “nursing homes. ‘I We do, however, refer to
skilled nursing facilities specifically where findings pertain solely to these entities.

Portable x-ray and EKG services

Nursing homes provide directly or arrange for ancillary services--such as x-rays--for their
patients who require them. In some instances, firms known as portable x-ray suppliers
provide portable x-ray and electrocardiogram (EKG) services in nursing homes.2
Medicare’s portable x-ray benefit covers skeletal films of the arms, legs, pelvis, vertebral
column, and skull as well as chest and abdominal films that do not use contrast media.

Medicare also covers EKG services under the portable benefit, if they are medically
necessary and are performed by certified portable x-ray suppliers. All of these services
must be diagnostic rather than therapeutic. Portable x-ray suppliers must meet HCFA’s
conditions of participation to receive reimbursement for these services. These conditions
of participation require, among other things, that suppliers comply with State and local
laws, which may provide for the licensing and regulation of portable suppliers. The
HCFA, however, eliminated reimbursement for portable EKG transportation in November
1996.

According to Medicare regulations, all portable x-ray services must be ordered by a
physician. The physician’s signed order must specify the reason why the x-ray is being
taken, the area of the body to be exposed, the number of x-rays to be taken, and the views
needed. The physician also must justify the need for portable services.

Portable x-ray suppliers must maintain records for each patient. These records should
include the examination date, a description of the x-rays that were taken, the name of the
referring physician, the equipment operator, the physician to whom the x-rays were sent
for interpretation, and the date the x-rays were sent to that physician.




    2 Other options for nursing facilities include transporting patients to hospital outpatient departments,
imaging centers, physician offices, or other facilities for x-rays or EKGs.
Billing for portable x-ray and EKG services

Billing comnonents

Imaging services consist of several components, depending on the type of service and
where and by whom it was rendered:

b	     Technical: All of the activities that are necessary in the actual taking of the x-ray,
       e.g., developing and delivering the x-ray as well as overhead expenses and
       supplies.

b      Professional:   Interpretation by a certified radiologist.

b	     Transportation:     Moving portable x-ray equipment to a nursing home. In
       general, HCFA allows a single transportation charge for each trip that a portable
       x-ray supplier makes to a particular location. When more than one patient is
       x-rayed at a single location, the single allowable charge is prorated among all
       patients receiving these services.

b	     Setup: Preparing x-ray equipment for use at a patient’s bedside.     A separate setup
       charge is allowed for each body part x-rayed.

Billing methods

Portable x-ray and EKG services provided to nursing home patients may be billed by a
skilled nursing facility to the Part A fiscal intermediary or by the portable supplier to the
Part B carrier. When the services are provided to a skilled nursing facility, the facility
and the portable supplier decide who will bill for the services. When the portable supplier
bills the Part B carrier, this is called “direct billing. ” When a skilled nursing facility
bills the Part A fiscal intermediary and pays the portable supplier for services rendered,
this is called “billing under arrangement. ” Skilled nursing facilities may bill under
arrangement even for patients who are not in Part A-covered stays. In these cases, the
skilled nursing facility includes a code on the claim that denotes that the beneficiary is not
covered under Part A.

When the claim is processed by the fiscal intermediary, reimbursement is based on the
annual cost report submitted by the skilled nursing facility to its fiscal intermediary.
When the claim is processed by the carrier, reimbursement is based on a combination of a
reasonable charge determination and the national fee schedule.

These different billing methods can result in vastly different costs to the Medicare
program and its beneficiaries, particularly when one compares reimbursement made by the
fiscal intermediary to that made by the carrier. The table on the following page illustrates
the differences between these two billing methods:




                                               3

                  Comparison of different billing methods for portable x-ray services


                         Portable supplier bills    Skilled nursingfacility bills under arrangement to
                         carrier directly          fiscal intermediary


 Medicare payment        National fee              Reasonable cost. Intermediary may refer to fee
 mechanism               schedule/reasonable       schedule to determine what is reasonable but is not
                         charge blended rate.      required to use it.

 Portable x-ray          80 percent of allowed      100 percent of supplier’s charge, based on contract
 supplier is             amount (paid by            with skilled nursing facility (paid by skilled nursing
 reimbursed              carrier).                  facility).


 Nursing home/skilled    Nothing. 
                 Supplier’s charge plus skilled nursing facility’s
 nursingfaciliry is 
                               overhead charges.
 reimbursed 



 Benejiciary             20 percent of allowed      Patients in Part A-covered stays pay coinsurance for
 copayment               amount.                    day 20 through day 100. Patients covered solely by
                                                    Part B pay 20 percent of the m      amount
                                                    regardless of when the service is provided.

 Adjustmentsto           No routine post-           The skilled nursing facility submits an annuaI cost
 payment                 payment adjustments.       report. Through audits, the intermediary determines
                                                    whether the costs are reasonable and reconciles any
                                                    difference between interim payments and final
                                                    allowable cost.


Previous work on costs of imaging services

In 1991, the Office of Inspector General (OIG) issued a report entitled “Study of Costs
and Payments for Portable X-Ray Services” (A-01-90-00517). This report found that
(1) payment levels for portable x-ray services remained consistent when converted from a
reasonable charge system to a fee schedule and (2) two carriers allowed payments for
portable x-ray transportation that were significantly more than the amount allowed before
the fee schedule was implemented. The report also discussed the pros and cons of
adopting a separate fee schedule for portable x-ray services.

In 1992, HCFA’s Seattle regional office wrote a memorandum to headquarters detailing
excessive skilled nursing benefit payments made for portable x-ray services provided
under arrangement. The memorandum analyzed reimbursement policies, complaints from
beneficiaries and other portable x-ray suppliers, and claims from three skilled nursing
facilities.




                                                   4

Operation Restore Trust

In May 1995, President Clinton and Health and Human Services Secretary Donna Shalala
announced the kickoff of Operation Restore Trust (ORT), a new health care anti-fraud
initiative. The ORT began as a 2-year crackdown on Medicare and Medicaid fraud,
waste, and abuse in home health agencies, nursing homes, and durable medical equipment
suppliers. It focused on the five States--California, New York, Florida, Texas, and
Illinois--that account for 40 percent of the nation’s Medicare beneficiaries and program
expenditures.

The ORT included Federal and State agencies in collaboration with private sector entities
and beneficiaries. The Federal agencies involved in this effort include the OIG, HCFA,
and the Administration on Aging. The OIG undertook a number of national program
inspections aimed at identifying and eliminating systemic weaknesses that allow fraud,
waste, and abuse to occur in the areas of home health, nursing homes, and durable
medical equipment. This inspection was conducted as part of ORT.

A companion report, “Portable Imaging Services: Nursing Home Perspectives”
(OEI-09-9500091)) describes when, how, and why nursing homes use portable imaging
services. Another companion report, “Imaging Services for Nursing Home Patients:
Medical Necessity” (OEI-09-95-00092), assesses the medical necessity and quality of care.

METHODOLOGY

From a 1 percent simple random sample of the Common Working File (CWF), we
extracted data on all beneficiaries who were in a nursing home or who received a portable
imaging service at any time during calendar year (CY) 1994. We then extracted claims
data on all imaging services provided to these beneficiaries during CY 1994.

We identified these nursing home residents through several indicators in the claims data.
These indicators included place of service, hospital discharge destination, skilled nursing
claims, and HCFA Common Procedure Coding System (HCPCS) codes that are likely to
correspond to a nursing home resident (such as transportation of portable x-ray
equipment). Based on a pre-test of this approach, we estimate that our database included
approximately 93 percent of all imaging services provided to nursing home residents.

From this newly created database, we selected a stratified random sample of 729 imaging
services that were provided while the beneficiary was a nursing home resident. The strata
are illustrated in the table on the following page:




                                            5

                        Stratified sample of selected imaging services

                                      Stratum                                 Sample size
                                I                      I


       Chest x-rays (HCPCS =
       71010 through 71035)

                                    arrangements           Non-ORT   States       60

                                                           ORT States             143
       EKGs (numerous   HCPCS codes)
                                                           Non-ORT   States       65

       Computerized axial tomography and magnetic          ORT States             167
       resonance imaging (numerous HCPCS codes)            Non-ORT   States       75


When there was no skilled nursing facility claim overlapping the date of the imaging
service in our sample, we attempted to verify that the beneficiary was a nursing home
resident by contacting providers and nursing homes. We excluded beneficiaries from our
calculations if they did not reside in skilled nursing, Medicaid nursing, board and care,
assisted living, or retirement facilities when they received the imaging service in our
sample. This included patients who were hospital inpatients. We also found several
billing errors that incorrectly stated that an imaging service had been provided, and we
removed these beneficiaries from the sample. We undertook a number of steps to
determine how much was billed and paid for services provided under arrangement:

  b	   Breaking down cost components of claims submitted to jiscal intermediaries:     For
       each beneficiary with a fiscal intermediary claim covering the date of the service in
       our sample, we requested information from the skilled nursing facilities about the
       cost components of each claim. For example, for contracted portable x-ray
       services, we requested the amount that the skilled nursing facility paid the portable
       supplier for the services and other costs that were included in the claim.

  b    Determining whether Part B claims submitted to fiscal intermediaries were actually
       for portable services billed under arrangement: These claims do not indicate
       whether the service was provided in a hospital outpatient department or whether it
       was portable, provided in a skilled nursing facility, and billed under arrangement
       for a beneficiary covered only under Part B. To make this distinction, we obtained
       medical records from the facilities that submitted these claims and the physicians
       who submitted Part B claims for the professional component. These records
       showed whether a portable supplier provided the service.

  F	   Determining allowed amounts for skilled nursing facilities that bill under
       arrangement: We subsequently obtained cost-to-charge ratios for each skilled
       nursing facility that submitted a claim to the fiscal intermediary for radiology


                                                   6
       and/or EKG services in order to estimate how much Medicare allowed for
       individual services in our sample.

  F 	 Applying fee schedules to services billed under arrangement: Using our sample of
       patients for whom an “under arrangement” claim was submitted, we obtained from
       carriers the amount that Medicare would have allowed for the claim if the service
       had been billed directly.

  F 	 Determining allowed amounts for services provided by outpatient departments and
      skilled nursing facilities that provide services directly using their own equipment:
       We obtained radiology and/or EKG cost-to-charge ratios for these facilities.

  F 	 Determining beneficiary copayments: We obtained copies of the Explanation of
       Medicare Benefits for all beneficiaries for whom a claim had been submitted to the
       fiscal intermediary. Because beneficiaries are not required to pay a copayment for
       the first 20 days of a Part A stay and then are required to pay a daily bundled
       coinsurance for subsequent days, we assumed that their coinsurance for a single
       imaging procedure would be $0. We assumed that Part B coinsurance would be
       20 percent of the charge.

We conducted interviews with the 93 nursing homes that we verified had provided a
portable chest x-ray for the patients in our sample. We asked the nursing homes how they
provide services, how they bill for them, and their rationale for these decisions. For
skilled nursing facilities that bill under arrangement, we obtained copies of their contracts
with portable suppliers.

To gather additional information on imaging services provided to nursing home patients,
we conducted interviews with carriers and fiscal intermediaries. Among other issues, we
asked questions about (1) their coverage, payment, and audit guidelines, (2) the safeguards
they have in place to detect and prevent inappropriate services and billing, (3) how they
developed their reimbursement schedules for portable x-ray transportation, and (4) if they
had conducted any studies concerning imaging services for nursing home patients.

For all claims, we requested medical records and original x-rays, EKGs, magnetic
resonance images (MRIs), and computerized axial tomography (CAT) scans. These
records were evaluated by a medical review contractor for medical necessity and are the
subject of our report, “Imaging Services for Nursing Home Patients: Medical Necessity. ”

Based on our findings from the sample, we projected Medicare costs and savings to all
radiological services referenced in the report. For further information about our
calculations, see appendices B and C.

Because this report focuses on portable imaging services, the findings and
recommendations pertain to chest x-rays and EKGs only. While MRIs and CAT scans
might be provided by portable suppliers in the future, no patients in our sample received
portable MRIs or CAT scans.


                                             7
                                      FINDINGS

Portable chest x-rays cost far more than non-portable                        chest x-rays

Portable chest x-rays may cost up to nine times more than non-portable chest x-rays. If a
physician or nursing home owns and uses its own x-ray equipment, the cost to Medicare is
always substantially less than when a portable supplier is used. The following graphics
illustrate the stark differences in costs of nursing home resident chest x-rays taken in
1994:

              Portable chest x-rays billed under arrangement are the most costly


        � Average allowed amount per chest x-ray


                                                                                                                 1




                                                                           Portable in     Portable in Skilled
              Physician’s       Nming Home         Hospital Outpatient   Nursing Home--     Nursing Facility--
                OffiCe       Using Own Equipment      Department         Billed Directly   Under Arrangement


Most chest x-rays provided to nursing home patients are taken by portable x-ray suppliers.
They performed more than 60 percent of chest x-rays rendered to nursing home patients in
1994. The chart on the following page shows the different options for providing x-ray
services to nursing home residents and how they were utilized in 1994:




                                                     8

                             Most chest x-rays for nursing home residents
                                   are performed in nursing homes

                                   Options                        Percent of chest x-rays

              Nursing home, portable,        billed directly               55.3

              Skilled nursing facility, portable,        billed             6.3
              under arrangement

               Nursing home, using own equipment                           13.8

               Hospital outpatient department                              20.9

               Physician’s    office                                        3.7


Portable chest x-rays cost more because (1) Medicare allows a transportation charge which 

frequently is the most expensive cost component; (2) for each body part x-rayed, 

Medicare allows a separate setup charge; and (3) Medicare allows portable services to be 

billed under arrangement. When services are billed under arrangement, fiscal 

intermediaries generally do not limit how much suppliers can charge to skilled nursing 

facilities or how much these facilities can inflate these charges. 


Chest x-rays performed in physician offices, using the physician’s own equipment, cost 

less than those provided in other settings because physicians can bill only for technical and 

professional components. Carriers pay both of these components under the fee schedule. 

In 1994, however, less than 4 percent of chest x-rays for nursing home residents were 

provided in physicians’ offices. 


Many nursing home residents receive chest x-rays in hospital outpatient departments or in 

nursing homes--primarily skilled nursing facilities--that own their equipment. In these 

cases, either the outpatient department or skilled nursing facility submits claims to the 

fiscal intermediary for the technical component. Although no transportation or setup 

charges are billed, the facility bills for overhead. In 1994, approximately 13.8 percent of 

chest x-rays performed on nursing home residents were provided using nursing home 

equipment. In 1994, hospital outpatient departments performed 20.9 percent of chest 

x-rays for nursing home residents. 


Medicare pays more than twice as much for imaging services when they are
billed under arrangement rather than when payment is limited to the fee
schedule

In 1994, Medicare paid $14.7 million more for portable chest x-rays and EKGs provided
under arrangement   than it would have if payment were limited to the carrier fee schedules
(i.e., $24.4 million versus $9.7 million). Every portable chest x-ray and EKG billed
under arrangement costs Medicare more than if the same service had been billed directly
and limited to the fee schedules. This occurs because (1) portable x-ray suppliers
negotiate contracts with skilled nursing facilities to ensure that they receive more--


                                                     9
sometimes as much as six times more--than fee schedules would allow and (2) skilled
nursing facilities mark up these already inflated charges as much as 250 percent for, what
they claim constitutes, overhead and expenses. Overall, approximately 10.2 percent of
portable chest x-rays and EKGs provided to nursing home residents in 1994 were billed by
skilled nursing facilities under arrangement. Some policy makers have suggested,
however, that all ancillary services should be billed by nursing homes.

Other radiological services billed under arrangement also cost Medicare more than they
would if they were limited to fee schedules. In reviewing the contracts negotiated
between portable suppliers and skilled nursing facilities, we found that these facilities pay
considerably more than the fee schedule would allow for all portable imaging services.
Using the 1 percent sample and our data on chest x-rays and EKGs, we estimate that
Medicare spent $9 million more in 1994 on other radiological services billed under
arrangement than it would have if payments for those services had been limited by the fee
schedules. For further information about how we estimated this cost, see appendix C.

On average, portable suppliers who bill under arrangement               receive double
what the fee schedule would allow

Portable x-ray suppliers negotiate contracts with skilled nursing facilities that ensure
higher reimbursement than the Medicare fee schedule would allow. At the same time,
they actually reduce their administrative expenses because the skilled nursing facilities bill
Medicare, other payors, and beneficiaries. In 1994, portable x-ray suppliers received
$10.7 million from Medicare and its beneficiaries for chest x-rays and EKGs that they
would not have received if they had billed directly.

Portable suppliers always receive more when services are billed under arrangement than
they would if they billed directly. Some portable suppliers receive almost six times the
fee schedule amount for specific components, as the following table illustrates.


          Billing under arrangement allows portable suppliers to skirt fee schedules

        HCPCS                  Description             Fee Schedule   Under Arrangement

                     Two-view chest x-ray--
       71020TC 	                                         $15.05             $87.50
                     technical component
                     Portable x-ray transportation--
         RO075 	                                         $19.12             $95.00
                     2 uatients seen

Skilled nursing facilities that bill under arrangement rarely are prudent buyers. Portable
x-ray suppliers charge radically different amounts to neighboring skilled nursing facilities.
We obtained contracts showing several instances where skilled nursing facilities in the
same city paid widely varying amounts for the same services. The following table
illustrates these differences.




                                              10 

                 Some skilled nursing facilities pay significantly higher prices
                       for imaging services than neighboring facilities

                                                           Skilled Nursing     Skilled Nursing
         HCPCS                   Description                                    Facility “B”
                                                            Facility “A”

 71010                 Chest x-ray, l-view                       $18                $55

 71020                 Chest x-ray, 2-view                       $18                $65

 ROO70   and RO075     Transportation--per patient               $20                $90

                       Portable x-ray setup charge--per
 40092                                                           $0”                $25
                       procedure


* Setup charge is included as part of the transportationcharge

During interviews with the administrators of these skilled nursing facilities, we determined 

that skilled nursing facility “A” routinely solicits bids for portable imaging service 

contracts, thus ensuring competitive charges. Skilled nursing facility “B” was more 

typical of facilities that bill under arrangement in that it had an on-going arrangement with 

one supplier for several years. In these cases, we found that it was rare for the facilities 

to solicit bids, negotiate, or periodically “shop the market” to find out what other 

suppliers would charge. 


Skilled nursing facilities receive millions of dollars that they would not receive
if they did not bill under arrangement

Skilled nursing facilities mark up portable chest x-ray costs as much as 250 percent above
what portable x-ray suppliers bill them. Although the amount paid by Medicare is
adjusted through cost reports, both Medicare and its beneficiaries paid skilled nursing
facilities $8.1 million in 1994 to bill for portable chest x-rays and EKGs--$8.1 million that
they would not have paid if the services had been billed directly by portable x-ray
suppliers.

For the most part, skilled nursing facility administrators could not explain why their
facilities billed under arrangement. The most common response was simply that the
facility had billed under arrangement prior to their arrival and they maintained the status
quo. For a more complete discussion of the responses we received from administrators,
see our companion report, “Portable Imaging Services: Nursing Home Perspectives. ”

Medicare pays for services under arrangement              that it would not cover if billed
directly

Fiscal intermediaries do not apply the same routine screens and edits to services billed
under arrangement that carriers apply to services billed directly. As a result, skilled


                                               11
nursing facilities are reimbursed for charges that would have been denied if the portable
supplier had billed a Medicare carrier directly. Some examples include:

  F 	 Setup charges for portable EKG equipment. Medicare policy excludes payment
      for setting up portable EKG equipment. Nevertheless, we found that skilled
      nursing facilities routinely pay portable suppliers for EKG setup. They
      subsequently bill and receive payment from intermediaries for these charges.

   F 	 After-hours or emergency charges. While carriers indicated that they would not
       allow these charges, portable suppliers who bill under arrangement received as
       much as $66 extra for providing services on an emergency, nighttime, or weekend
       basis. In one instance, a supplier received both an emergency and after-hour
       payment for a single service, totaling $90.

   b	   Transpotiation charges not prorated when multiple patients are seen. Under
        direct billing, when a portable supplier provides services to more than one patient
        at a nursing home, Medicare requires that the transportation charge be allocated to
        each patient so that the total amount allowed for transportation is always the same.
        However, suppliers’ contracts with skilled nursing facilities almost never prorate.
        For example, one portable supplier received $99 per patient, regardless of how
        many patients he saw in one visit. In addition, there is no way under the present
        system that an intermediary or other oversight agency can determine how many
        patients were seen at a particular skilled nursing facility during the same visit
        unless it conducts an extensive and expensive audit of patient records.

   b	   Medically unnecessary or duplicate services. Because Part A claims do not list
        individual services that a patient received, it is difficult to determine whether a
        specific service is medically necessary or whether the charge for an individual
        service is excessive. In addition, fiscal intermediaries do not perform routine edits
        to determine if a beneficiary is receiving multiple or duplicate services, such as a
        daily chest x-ray, on a routine basis.

   b 	 Portable equipment transportation and setup charges when only a portable
       technician is provided. In at least one case, we determined that a skilled nursing
       facility had x-ray equipment on-site but required a technician to operate the
       equipment. According to Medicare regulations, this is not a portable service and
       the facility should have paid only a technical component charge and billed
       Medicare accordingly. Instead, they paid the supplier for setup and transportation
       charges in addition to the technical component, marked up the charges, and billed
       the full amount, including mark-up, to Medicare.

Contracts that bundle individual components make it difficult to review and compare
costs. Even if intermediaries attempted to apply prudent buyer principles to specific
services, the contracts sometimes are difficult to interpret. For example, some supplier
contracts bundle the transportation and technical components, making it difficult to



                                             12 

determine which component might be overpriced. Other bundling combinations include
(1) the transportation and setup components and (2) the technical and setup components.

Beneficiary copayments for services billed under arrangement are almost three
times more than they would be if the services had been billed directly

The combination of three factors--inflated supplier charges, excessive markups by skilled
nursing facilities, and the Medicare policy that beneficiary copayments are 20 percent of
billed amounts for ancillary services--results in vastly higher costs to beneficiaries and
secondary payors when services are billed under arrangement. This is particularly true
when a beneficiary is in a non-covered stay. Beneficiaries whose stays are covered by
Part A pay less because they pay no coinsurance during the first 20 days of their stay. In
1994, beneficiaries paid $6.5 million in copayments for services billed under arrangement
for which they would have paid $2.4 million if the services had been billed directly.

When a beneficiary has Part B coverage only and the skilled nursing facility bills under
arrangement, the beneficiary’s copayment skyrockets. The following table illustrates how
one beneficiary in our sample incurred a higher copayment because his skilled nursing
facility billed under arrangement:


                          Billing under arrangement costs beneficiaries more


      kk

      Total charge billed to Medicare                      $250.21                N/A

      Total allowed amount                                                      $101.74

           71020--chest x-ray, 2 views,
                                                                                 $27.53
           technical component

           Q0092--setup                                                          $13.31

           R0070--transportation,    1 patient seen                              $60.90


      Beneficiary   copayment--technical




The amounts that Medicare carriers allow for transportation                    of portable x-ray
equipment vary widely, and some are excessive

Even when portable imaging services are billed directly, portable x-ray transportation
charges and allowed amounts can vary considerably. In 1994, carrier allowances for
portable x-ray transportation when one patient was seen ranged from $10.00 to $186.39.


                                                      13
The table below shows the five lowest and five highest transportation allowed amounts in
our sample when a single patient was seen at a nursing home:

       Lowest Transportation                         Highest Transportation
       Allowed Amounts--R0070                        Allowed Amounts--R0070

       Illinois:       $10.00                        Michigan:      $186.39
       New York:       $33.20                        New Jersey:    $154.00
       Florida:        $45.44                        New York:      $154.00
       Ohio:           $50.00                        Connecticut:   $126.77
       California:     $55.43                        Washington:    $113.42

Although Medicare requires carriers to prorate transportation charges when multiple
patients are seen at one nursing home, not all carriers do this correctly. For example, two
portable suppliers in one State received $123.11 per patient when seeing multiple patients
during the same visit.

There is no statutory authority for HCFA to allow setup charges. Prior to 1992,
equipment setup was considered part of the transportation component. In 1992,
HCFA instructed carriers to start allowing a separate and additional charge for portable
x-ray equipment setup. In doing so, HCFA made a distinction between transporting the
equipment and setting it up at the patient’s bedside.

In contrast to this policy, in November 1996, HCFA eliminated reimbursement for the
transportation of portable EKG equipment. In doing so, HCFA stated, “in our judgment,
statutory authority existed for separate payments for only the transportation of x-ray
equipment. ” While HCFA states that it believes that Congress intended for it to pay
separately for portable x-ray transportation, there is no indication that this also applies to
setup charges.




                                             14 

                       RECOMMENDATION


                                        Legi&z.ti~e Update

       A$er we released our drufi report, President Clinton signed into law the Balanced
       Budget Act of i997, Among the provisions in this law, it;

         w 	 establishes a prospective payment systemfor beneficiaries in Part A-covered
             stays in skilled nursing facilities, to be phased in over several years;

         * 	 reqdres that all Part 3 items and services fikrnished to residents of nursing
             homes (not covered under Part A/ be billed by the nursing homes as part of a
             consolidated billing system;

         b 	 limits reimbursement for services paid under consolidated billing to the Part
             Bfee schedule; and

         b   requires HCPCS codes for services provided to skilled nursing facility
             patients that are bt’lledto$scal intermediaries.




The Balanced Budget Act legislated most of the recommendations in the draft of this
report. In the draft report, we recommended that HCFA:

  b	     instruct fiscal intermediaries to never pay more than the fee schedule amount for
         portable imaging services billed under arrangement;

  b	     require fiscal intermediary edits and Common Procedure Coding System codes on
         all claims to discontinue payments for non-covered services;

  b	     require fiscal intermediaries to disallow any skilled nursing facility overhead
         associated with portable imaging services; and

  b	     convert transportation reimbursement rates to a national fee schedule, rebundle
         equipment setup with transportation, and remind carriers that they must prorate
         transportation charges when multiple patients are seen at the same facility.




                                              15 

   II           Projected Medicare savings from implemented recommendations

   IIOption                                                  I 1-year savings I 5-year savings


   (I  Limit payment for services billed under
       arrangement to fee schedule
                                                              $ 28.3 million   $160.4 million

       Limit transportation to $70 per beneficiary-service    $ 21.8 million   $126.6 million 

       day (the national median), $35 if 2 beneficiaries 

       are seen during the same trip, etc. 

       Stop paying for setup                                  $ 15.7 million   $ 73.9 million 


       TOTALS                                                 $ 65.8 million   $360.9 million



AGENCY COMMENTS AND REVISED RECOMMENDATION

The HCFA concurred with the majority of the recommendations in our draft report but
did not concur with our recommendations that it (1) disallow any skilled nursing facility
overhead associated with portable imaging services and (2) rebundle the equipment setup
charge with transportation. The full text of HCFA’s comments appears in appendix A.

We believe that implementation of the Balance Budget Act will address these issues. We
are concerned, however, that the cost of ancillary services has been inflated by the
practices described in this report. Therefore, we recommend that HCFA:

  b	    take into account the inflated payments that have been made for portable imaging
        services when it implements the prospective payment and Part B provisions of the
        Balanced Budget Act, seeking legislative authority if necessary

        The HCFA should take into account the inflated charges for (1) services billed
        under arrangement (including payments for services that were non-covered) and
        (2) transportation charges that were excessive or prorated incorrectly. This
        recommendation should be considered in tandem with our recommendation in the
        report “Portable Imaging Services: Nursing Home Perspectives. ” That report
        recommends that, in implementing the Balanced Budget Act, HCFA should take
        into account the unnecessary payments that have been made because HCFA has not
        enforced the requirement that physicians justify the need for portable services.




                                                 16 

                         APPENDIX                           A

                             AGENCY COMMENTS

                     Health Care Financing Administration




        DEPARTMENT    OF HEALTH   & HUMAN    SERVICES               Health Care Financing Administration



                                                                    The Administrator
                                                                    WashiMtM. D.C. ‘2ow1




                                                                              AUG4                .'I
                JUl24W
DATE:

TO: 	          June Gibbs Brown
               Inspector General

FROM:


SUBJECT: 	 Oflice of Inspector General (OIG) Draft Reports:“Portable Imaging
           Services: A Costly Option” (OEI-O9-95-00090),and “Portable Imaging
           Services:Nursing Facility Perspectives,”(OEI-O9-95-00091)


We reviewed the above-referencedreportaidentifying a number of problems with how
nursing facilities provide and bill for imaging servicesfor their patients.

Our detailed comments on the recommendationsare attachedfor your consideration.
Thank you for the opporhmityto review and comment on thesereports.

Attachment



                --




                                            A-l
            Comments of the Health Care Finaucina Administration (HCFA) 

                  on Offtce of Inspector General (OIG1 Drafl Renorts: 

        “Portable Imaeiun Services: A Costlv Ontion” fOEI-09-9500090L and 

     “Portable Imagine Services: Nursine Facilitv Perspectives.” (OEI-09-9500091> 





The Inspector General should be aware of legislation proposed by the president in his
fiscal year (FY) 1998 budget that would mitigate problems with ancillary billing that are
experienced under current law.

First, the President proposed to implement a prospective payment system (PPS) for
skilled nursing facilities (SNFs) effective July 1, 1998. Prospective payments would
cover all SNF service costs, including routine service costs, ancillary costs (whether
provided under Part A or Part B of Medicare), and capital-related costs. A PPS would
eliminate cost-based discrepancies between ‘direct” billing and “under arrangement’
billing.

Second, the President’s consolidated billing proposal is designed to address the current
law’s lack of restraints on ancilhuy billing. Under the proposal, SNFs would be required
to bill Medicare for all services (except the services of physicians, certified nurse
midwives, psychologists, hospice care, and nurse anesthetists). This proposal would
prohibit payment to any entity other than the SNF for services or supplies furnished to
Medicare-covered SNF patients.

Finally, as recommended by OIG, the President’s FY 1998 budget legislation would
require SNFs to include HCFA common procedure coding system (HCPCS) codes on
their bills. --

OIG Draft Report - GEL09-95-00090 - Portable Imaeinp: Services: A Costlv Gntioa

OIG Recommendation

HCFA should instruct fiscal intermediaries @Is) to never pay more than the fee schedule
amount for portable imaging services billed under arrangement.




                                        A-2 

HCFA Response

We concur. However, we note it will take a considerable amount of administrative work
to implement this policy. (For example, it is currently impossible to impose this
requirement because SNPs use revenue codes rather than HCPCS codes when billiag for
these services. It is impossible to compare services using these codes. It will take time to
make the chsages necessary to require SNPs to use HCPCS codes.) HCFA already
instructed the FIs, that in applying the prudent buyer principle, they should compare the
price paid by SNFs for portable x-my services with the aatomt paid when portable x-ray
services are billed by the supplier to the carrier.

OIG Recomamadation

HCFA should require FI edits aad HCPCS codes on all claims to discontinue paymeats
for non-covered services.

HCFA Resuoase

We concur with the intent of the recommendation. HCFA is currently pursuiag
legislation that will change SNP payment methodology and make this action unnecessary.
We believe implementation of coasolidated billing aad aa amendment to the current
statute is a broader approach to resolving issues sm~oundiag non-covered services aad
excessive costs associated with SNPs billiag for portable iamgiag services. Ia the
interim, HCFA explored use of HCPCS codes. However, this would require a major
change to the Medicare Uniforat Iastitutioaal Provider Billing Form (LIB-92) aad costly
claims processing systems changes. Therefore, it is not cost effective over the longer
term.          -__

OIG Recommendation

HCFA should require FIs to disallow say nursing facility overhead associated with
portable mragiag services.

HCFA Resuoase

We do not concur. Portable x-ray costs incurred by the SNF under arrangement are
subject to the test of reasonableaess as required by regulatioas at 42 CPR 413.9, Costs
Related to Patient Care, and Chapter 21, Costs Related to Patient Care, of the Provider
m                          (PRM). As pointed out ia PRM section 2103B, Prudent Buyer-
Application of Prudent Buyer principle, intermediaries aray employ various means for




                                        A-3 

detecting and investigating situations where costs appear to be excessive. Included may
be such techniques as comparing the prices paid by providers to the price paid by others.
HCFA instructed the FIs, that in applying the prudent buyer principle, they should
compare the price paid by SNFs for portable x-ray services with the amount paid when
portable x-ray services are billed by the supplier to the carrier. After allowing any
reasonable amount of actual overhead that may be applied to the cost incurred by the SNF
for the technical component and transportation component of the portable x-ray charge
made by the.carrier to the SNF, that amount should be compared with the amount paid
when portable x-ray services are billed by the supplier to the carrier (excluding the
professional fee portion).

OIG Recommendation

HCFA should immediately convert transportation reimbursement rates to a national fee
schedule, rebundle equipment setup with transportation, and remind carriers that they
must prorate transportation charges when multiple patients are seen at the same facility.

HCFA Resnonse

We partially concur. We will soon publish a proposed rule for the 1998 Medicare
physician fee schedule. Among the proposals will be one addressing an adjustment of
practice expense relative values assigned to codes payable under the physician fee
schedule. As a part of that proposal, we plan to include a national payment rate for the
portable x-ray tmnsportation codes ROO70- one patient and RO075- multiple patients,
effective with the 1998 physician fee schedule.

We made a p&y decision that it was appropriate to pay a setup fee with every portable
x-ray procedure furnished because there was no question that Medicare had historically
paid higher amounts for the technical component of x-ray services furnished by portable
suppliers vis-a-vis procedures performed by stationary entities. The setup fee reflects the
historic aatioaal average difference between carrier payments for x-rays furnished by
portable suppliers vis-a-vis payments made for the procedures furnished by other
facilities. We continue to believe these payments are appropriate. Further, it would be
inappropriate to bundle setup fees with transportation payments since carriers pay a
single transportation payment per trip, but would pay multiple setup fees when an
individual beaeficiaty receives several x-ray procedures during a session.




                                         A-4 

Separate codes, describing situations in which one patient is seen and those in which 

multiple patients are seen, clearly indicate that carriers should have. different payment 

amounts. Further, a discussion of the required proration when multipIe patients are seen 

was included in a Medicare Carriers Manual revision published in June 1996, transmittal 

number 1546, citation section 15022.G.3. 


OIG Draft Reoort OEI-09-95-00091- Portable Imauine; Services: Nursing Facilitv 

Persaectives 


OIG Recommendation 


HCFA should eliminate the requirement that physicians justify the use of portable 

x-ray services for nursing facility patients. 


HCFA Resuonse 


We do not concur. We believe the current requirement in 42 CFR 486.106(a) should be 

maintained, even though it may not be enforced effectively at this time. We recently 

proposed and adopted a new rule requiring that the physician who orders a diagnostic test 

must be a physician who is responsible for some aspect of the beneficiary’s care. One of 

the primary reasons we took this action was to give the carriers an additional tool to use 

in determining whether diagnostic tests performed in aursing facilities are medically 

necessary. We believe any action taken the following year to relax the ordering 

requirements for a category of diagnostic tests that is usually done in nursing facilities 

would be poorly timed. Further, we believe, since x-ray procedures furnished oa a 

portable basis are more expensive, more extensive justification of the necessity for the 

procedure is wonable.    Finally, since relaxing the ordering criteria could not possibly 

save the program any money, we can not see any benefit arising &om making such a 

change. 


Furthermore, section 483.75(k) of g 

requires a SNF to provide or obtain radiology and other diagnostic services to meet the 

needs of its residents. In so doing, the facility must assist the resident in making 

transportation arraugemeats to and thorn the source of services, if the resident needs 

assistance. As stated in your report, 88 percent of the facibties in your sample note that 

beneficiaries routinely travel to medical appointments outside the facility by taking 

wheelchair vans, and 38 percent of the facilities note that family members sometimes 





                                        A-5 

                                                                                      5

take patients to medical appointments outside the facility. This would indicate the use of
more costly portable x-ray services performed in the SNF may not always be reasonable
and necessary in those instances where the use of available outside resources is feasible.

There is no requirement that an aide be sent with a resident when obtaining services
outside the facility. We recognize in some instauces an aide may be necessary to ensure
the safety of the resident. Iu those cases, the SNF may charge the resident for this service.
Furthermore, under Title 3, Part B, section 321(a) of the Older Americans Act, grants are
provided to state units on aging to provide supportive services, includiug trausportation
(i.e., wheelchair vans), that are utilized by all long-term care (LTC) facility residents in
order to attend medical appoiutments outside the facility. These services are provided at
no cost to the facility. Also, under the Medicaid program, nursing facilities @IFS)are
reimbursed for transportation charges as part of the daily rate.

OIG Recommendation

HCFA should remind NFs that suppliers should not have access to patient records.

HCFA Resoonse

We concur. HCFA is preparing to release a program memorandum that addresses
medical necessity and con6dentiaIity of medical records for all services provided in LTC
facilities.

Technical Comments

Tbe term musing facility utilized throughout this report is misleading. Current Federal
regulatioas &tlnguish between two types of LTC facilities: an NF under the Medicaid
program, and a SNF undtr the Medicare program. We suggest that the term “long-term
care facility” replace the words “musing facility” throughout this report when referring to
a genetic nursing home. If a policy or coacem specifically relates to Medicare SNFs or
Medicaid NPs, it should be so noted.

The definition of SNF coverage under Part A that appears in the “Background” is too
general. We suggest it be more specitk. Section 1861(h) of the Social Security Act
provides for coverage of extended care services furnished to an inpatient of a SNF. Such
coverage includes: (1) nursing care provided by, or under the supervision of a registered       ’
professional nurse; (2) bed and board in connection with the furnishing of such musing




                                         A-6 

                                                                                    6

care; (3) physical or occupational therapy or speech-language pathology services
famished by the SNF or others under arrangements with them made by the facility; (4)
medical social services; (5) such drugs, biologic&, supplies, appliances, and equipment
fomished for use in the SNP, as are ordinarily tirmished by such facility for care and
treatment of inpatients; (6) medical services provided by an intern or resident-in-training
of a hospital with which the facility has in effect a transfer agreement, under an approved
teaching program of such hospital, and other diagnostic, or therapeutic services provided
by a hospital with which the facility has such an agreement in effect; and (7) such other
services necessary to the health of the patients as sre generally provided by SNFs.
Additionally, the deSnition of the SNF benefit that appears in the “Background” is too
general. We suggest it be more specific. The SNF benefit is referred to as post-hospital
extended care services. It is designed to assist persons who have had a 3-day qualifying
hospital stay, and require skilled services on a daily basis to recuperate from an acute
episode. Coverage, if approved, is limited to a total of 100 days per benefit period. On
the 2 1st day the beneficiary becomes responsible for a daily coinsurance amount equal to
one-eighth of the inpatient hospital deductible, as prescribed by law.

A statement is made on page 3 of the “Introduction” that “Nursing facilities may bill
under arrangement even for patients who are not in Part A-covered stays. In these cases,
the musing facility submits an outpatient claim to the fiscal intermediary.” Although the
first sentence is technically correct, the second sentence is incorrect and needs
clarifkation. We suggest the following language: “Payment may be made for a limited
range of services under Part B when fomished by a participating SNF to an inpatient of
the SNF, if payment cannot be made under Part A, e.g., the beneficiary exhausted his
allowed days of inpatient SNF coverage under Part A in his current spell of illness. In
these cases, the SNF submits a claim to the FIs for those inpatient services rendered.”
             ___




                                        A-7 

                                   APPENDIX                     B

                  CONFIDENCE INTERVALS FOR SELECTED STATISTICS

The following tables show the point estimates and 95 percent confidence intervals for
selected statistics in the order they appear in the report.


 Statistic

                                             Point estimate                    95 percent
                                                                           confidence interval

 Amount that Medicare paid during 1994 for portable chest x-rays and EKGs billed under
 arrangement

                                              $24.4 million            $6.2 million - $42.6 million

 Amount that Medicare would have paid during 1994 for portable chest x-rays and EKGs billed
 under arrangement if these services had been billed directly to the Medicare carrier

                                              $9.7 million             $3.0 million - $16.4 million

 Percent of portable chest x-rays that were billed under arrangement    during 1994

                                               10.2 percent             3.8 percent - 16.5 percent

 Difference between (1) the amount that portable suppliers were paid during 1994 for portable
 chest x-rays and EKGs billed under arrangement and (2) the amount that suppliers would have
 received if these services had been billed directly to the Medicare carrier

                                              $10.7 million            $2.9 million - $18.5 million

 Difference between (1) the amount that skilled nursing facilities were allowed during 1994 for
 portable chest x-rays and EKGs billed under arrangement and (2) the amount that skilled
 nursing facilities paid suppliers for these services

                                               $8.1 million            $0.5 million - $15.7 million

 Beneficiaries’    copayments   during 1994 for chest x-rays and EKGs billed under arrangement

                                               $6.5 million            $1.3 million - $11.8 million

 Beneficiaries’ copayments during 1994 for chest x-rays and EKGs billed under arrangement            if
 these services had been billed directly to the Medicare carrier

                                               $2.4 million            $0.8 million - $4.1 million




                                                B-l
Statistic

                                         Point estimate                      95 percent
                                                                        confidence interval

Amount that Medicare would have saved during 1994 if HCFA had required fiscal
intermediaries to apply the fee schedule to all portable imaging services billed under
arrangement

                                          $23.6 million            Cannot calculate because only
                                                                    chest x-rays and EKGs were
                                                                         part of our sample

Amount that Medicare would have saved during 1994 if HCFA had required fiscal
intermediaries to apply the fee schedule to chest x-rays and EKGs billed under arrangement

                                          $14.7 million             $3.0 million - $26.4 million

Amount that Medicare would have saved during 1995 if HCFA had eliminated         payment for
setup charge

                                          $16.6 million            $16.2 million - $17.0 million

Amount that Medicare would have saved during 1995 if HCFA had limited the amount allowed
for portable x-ray transportation to $70 per beneficiary per service day

                                          $18.9 million            $18.0 million - $19.8 million




                                            B-2
                             APPENDIX                      C

   CALCULATION       OF ESTIMATED SAVINGS TO THE MEDICARE PROGRAM

The calculation of estimated savings involved (1) estimating the amount that Medicare
would have saved during 1994 if HCFA had required the fiscal intermediaries to apply the
fee schedule to all portable imaging services billed under arrangement, and (2) projecting
these savings, and the other savings in our recommendations, to a 5-year period from
1997 through 2001.

Portable imaging services billed under arrangement

We calculated this estimate through a three-step process, as described below. We cannot
calculate a confidence interval for this estimate, because only chest x-rays and EKGs were
part of our sample.

1. 	   Using a 1 percent sample of 1994 part B claims, we calculated the amounts that
       Medicare allowed to suppliers for portable EKGs and x-rays that were billed
       directly to the Medicare carrier, as shown in the table below.


            Service (billed directly to carrier)          1994 allowed amount

         Portable EKGs                                I        $15643,243       II
         Portable chest x-rays                        I        $78,249,734      II

         SUB-TOTAL EKGs and chest x-rays                       $93,892,977

         Portable, non-chest x-rays                            $56424,623

         TOTAL                                               $150,317,600

As illustrated below, the ratio of non-chest x-rays to the combination of chest x-rays and
EKGs is 0.601. We assumed that this ratio would be approximately the same for services
billed under arrangement as for services billed directly.


  Calculation: Ratio of non-chest x-rays to
                                                   $56,424,623 + $93,892,977 = 0.601
  combination of EKGs and chest x-rays

2. 	   From our sample of chest x-rays and EKGs, we estimated that portable chest
       x-rays and EKGs billed under arrangement during 1994 cost Medicare
       $14.7 million more than these services would have cost if billed directly. (See the
       body of this report, page 9).




                                         C-l
3. 	   As illustrated below, we multiplied the estimate from step 2 by the ratio from
       step 1.


  Calculation: Non-chest x-rays billed under
                                                     $14,731,933 * 0.601 = $8.85 

  arrangement during 1994 cost Medicare
                                                                million

  $9 million more than if billed directly 


4. 	   By adding the amounts from steps 2 and 3, we estimated that all portable services
       that were billed under arrangement during 1994 cost Medicare $23.6 more than if
       billed directly.

Estimated   savings for 1997 through 2001:   transportation   and setup

We used a three-step process to estimate how much Medicare will save from 1997 through
2001 if HCFA (1) eliminates payment for setup and (2) limits the allowance for portable
x-ray transportation to $70 per beneficiary per service day.

1. 	   Using 1 percent sample data for 1994, we calculated that Medicare allowed a
       median of $70 for HCPCS code ROO70(portable x-ray transportation--one patient).

2. 	   Using 1 percent sample data for each year from 1992 through 1995, we calculated
       how much Medicare would have saved if HCFA had eliminated payment for setup
       and limited the allowance for transportation to $70. (We included portable x-ray
       transportation, but not EKG transportation, in this calculation.) Next, we
       calculated the annual percent changes for each year. We selected the smallest of
       these annual percent changes (a 2.90 percent decrease for setup and a 7.43 percent
       increase for transportation) to use in the step 3 calculations.

3. 	   Starting with the 1995 estimated savings, we calculated the savings in each
       subsequent year by changing the previous year’s savings by a 2.90 percent
       decrease (for setup) or a 7.43 percent increase (for transportation). The results of
       these calculations are displayed on the following page.

For example, the table on the following page illustrates how we calculated the
1997 savings for limiting the transportation allowance.




                                         c-2
  Starting point:     1995 transport savings                          $18,908,522
  Smallest percent increase in transport
                                                                      7.43 percent
  savings, 1992 through 1995

   1996 transport savings calculation                    $18908,522   * 1.0743 = $20.313.807

II 1997 transport    savings calculation             I   $20,313,807 * 1.0743 = $21,823,533

The precise number used for these calculations was 1.0743201987.


                              Statistics from 1 percent sample data

                  Savings for
                                       Percent change          Savings for       Percent change
                    limiting
    Year                               from previous        eliminating setup    from previous
                transportation
                                            year                allowance             year
                  allowance

                    $14,446,335        Not applicable          $10,757,229       Not applicable
                    $15,892,584            10.01%             $17,013,946            58.16%
                    $17,073,724            7.43%               $17,118,274           0.61%
                    $18,908,522            10.75 %            $16,621,992            -2.90%
                         Data for 1996 were not available at the time of this report


                                     5-year savings estimates


                     ~




                     1 2000
                       2001
                       1998
                       1997
                       1999           $25,187,934
                                      $21,823,533
                                      $29,071,004
                                      $27,059,906
                                      $23,445,463               $13,932,262
                                                                $15,217,817
                                                                $15,672,175
                                                                $14,348,237
                                                                $14,776,632

                     TOTAL]           $126,587,840              $73,947,123




                                               c-3
Estimated     savings for 1997 through 2001:    services billed under arrangement

We used a three-step process to estimate how much Medicare will save from 1997 through
2001 if HCFA requires fiscal intermediaries to apply the fee schedule to all portable
imaging services billed under arrangement.

1. 	       Using 1 percent sample data for each year from 1992 through 1995, we calculated
           the total number of portable transportation claims billed directly to Medicare
           carriers. Next, we calculated the annual percent changes for each year. We
           selected the smallest of these annual percent changes (a 6.27 percent increase) to
           use in the step 3 calculations.

           We indexed the billed-under-arrangement savings to directly billed transportation
           claims, because our sample only included 1994 data for services billed under
           arrangement. In these estimates, we are assuming that the number of portable
           services billed under arrangement will increase at the same rate as the number of
           portable services billed directly.

2. 	       We estimated that Medicare would have saved $23.6 million during 1994 if HCFA
           had required the fiscal intermediaries to apply the fee schedule to all portable
           imaging services billed under arrangement. (See pages C-l and C-2 of this
           appendix for this calculation.)

3. 	       Starting with the 1994 estimated savings from step 2, we calculated the savings in
           each subsequent year by increasing the previous year’s savings by 6.27 percent.
           The results of these calculations are displayed on the following page.

For example, the table below illustrates how we calculated the 1997 savings for applying
the fee schedule to services billed under arrangement.


   Starting point: 1994 savings for services
                                                                 $23,585,03 1

   billed under arrangement 

   Smallest percent increase in portable 

                                                                  6.27 percent 

   transportation claims, 1992 through 1995

       1995 savings calculation                      $23,585,031 * 1.0627 = $25,063,260 

       1996 savings calculation                      $25,063,260 * 1.0627 = $26,634,140 

       1997 savings calculation                      $26,634,140 * 1.0627 = $28,303,476 


The precise number used for these calculations was I. 06267658.




                                             c-4
           Statistics from 1 percent sample data

         Number of directly billed               Percent change from
Year
       portable transportation claims                previous year

                 1,345,OOo                         Not applicable
                 1,429,300                             6.27%
                 1,531,800                             7.17%
                 1,633,200                             6.62%
       Data for 1996 were not available at the time of this report



                  5-year savings estimates

                    Estimated savings for applying fee



                                   $28,303,476
                                   $30,077,441
                                   $3 1,962,593
                                   $33,965,899
                                   $36,094,765

                                   $160,404,174




                             c-5
